<html>
<title> - THE DEMOCRATIC REPUBLIC OF CONGO: THE LUSAKA PEACE ACCORDS AND BEYOND</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 THE DEMOCRATIC REPUBLIC OF CONGO: THE LUSAKA PEACE ACCORDS AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                           SEPTEMBER 28, 1999

                               __________

                           Serial No. 106-67

                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-318 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
TOM CAMPBELL, California             JIM DAVIS, Florida
JOHN M. McHUGH, New York             EARL POMEROY, North Dakota
BILL LUTHER, Minnesota               WILLIAM D. DELAHUNT, Massachusetts
LINDSEY GRAHAM, South Carolina       GREGORY W. MEEKS, New York
ROY BLUNT, Missouri                  BARBARA LEE, California
KEVIN BRADY, Texas                   JOSEPH CROWLEY, New York
RICHARD BURR, North Carolina         JOSEPH M. HOEFFEL, Pennsylvania
PAUL E. GILLMOR, Ohio
GEORGE P. RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
TOM TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Howard Wolpe, U.S. Department of State.............     3
William Zartman, Director of African Studies and Conflict 
  Management, Johns Hopkins University...........................    18
Mwabilu Ngoyi, President, Congolese Internatioanl Union..........    21
Kanyand Matand, Vice President, Congolese International Union....    21

                                APPENDIX

The Honorable Howard Wolpe, U.S. Department of State.............    36
Dr. William Zartman..............................................    44
Mwabilu Ngoyi....................................................    52
The Honorable Benjamin A. Gilman, from the State of New York, 
  Chairman, Committee on International Relations.................    63
The Honorable Edward Royce, form the State of California, 
  Chairman, Subcommittee on Africa...............................    65

Additional Material Submitted:

Letter from President Frederick Chiluba, Republic of Zambia......    34
Platform of ``Congolese Mothers for Peace'', Peace Crusade.......    66


 THE DEMOCRATIC REPUBLIC OF CONGO: THE LUSAKA PEACE ACCORDS AND BEYOND

                              ----------                              


                      Tuesday, September 28, 1999

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(Chairman of the Subcommittee) presiding.
    Mr. Royce. This hearing of the Subcommittee on Africa will 
now come to order. We will ask the Members to take their 
chairs.
    Since this Subcommittee last heard from the Administration 
on the Congo crisis, a peace agreement has been agreed to by 
most of the belligerents. Hopefully, the Lusaka Accords is the 
first step of what will be probably a long and complex process 
of bringing peace and stability to the Democratic Republic of 
Congo and its neighbors. Today, the Subcommittee will hear 
about the 2 month-old peace agreement from the Administration 
and also from outside observers.
    The Administration announced last week that Secretary of 
State Madeleine Albright will travel to Africa in mid-October. 
It is my hope that the Secretary's trip will focus on laying 
the foundation for a robust American engagement in attempts to 
resolve this conflict. ``African solutions to African 
problems'' should not be a license for America's disengagement 
from this difficult region.
    American engagement is expected, considering that in 1997 
Secretary Albright said that we must do better because Africa 
matters and that no place matters more in Africa than the Great 
Lakes. The Secretary went on to say that achieving a lasting 
peace in this region will be as difficult as implementing the 
Camp David agreement and as complex as sustaining the Dayton 
Accords, yet the rewards were surely as great, and success, the 
Secretary told us, success no less important to us.
    I recall these statements by our Secretary of State in the 
spirit of urging the Administration to make good on its 
commitments to the region.
    Being engaged means using the power we have, including the 
World Bank, including the International Monetary Fund, the 
leverage that we have there. This requires that the United 
States be willing to point the finger at uncooperative parties. 
Being an honest broker does not mean being mute in the face of 
violations of this agreement.
    A year ago at a Subcommittee hearing on this crisis, I 
raised difficult issues of foreign intervention and territorial 
integrity that I wasn't sure the international community was 
handling well. I am still troubled by the military presence of 
Uganda and Rwanda on Congo's sovereign territory. These 
concerns have been heightened by the fact that these countries 
are now plundering Congolese resources. One observer has made 
the point that this war is now a triumph for the economic 
entrepreneur. This development is profoundly troubling for the 
region and beyond.
    The U.S. Institute of Peace has just come out with a study 
on the Congo conflict. This report suggests that the current 
peace agreement represents, in their words, a last exit on the 
region's highway to hell, unquote. This is strong language but 
it conveys a needed sense of urgency. Africa does matter and 
deserves our attention. Unfortunately, many of the goals that 
this Subcommittee and the Administration have sought to help 
Africa achieve, including the prevention of genocide, are in 
serious jeopardy in the region.
    Now, before we go to our witnesses and our opening 
statement by our Ranking Member, I thought I would just 
introduce in the audience the Speaker of Nigeria, Speaker of 
the House, Naaba U. Ghali, if he would stand at this time. Mr. 
Speaker, welcome.
    We have with him the Majority Leader, Mohammed Wakil, if 
you would stand, Mohammed, and with them is a delegation of 
parliamentarians from Nigeria and cabinet members, and I would 
ask them all to stand at this time, if you would.
    On behalf of Mr. Payne, Mr. Hastings and myself and the 
other Members who have made recent trips to Nigeria, let me say 
that the U.S. Congress is closely watching developments in 
Nigeria, and I think many of us are encouraged by the progress 
they have made, and we want to be supportive. I thank you very 
much for coming to our hearing today.
    And with that, let me turn to our Ranking Member, Mr. Payne 
of New Jersey.
    Mr. Payne. Thank you, Mr. Chairman, and let me too welcome 
the distinguished delegation from the Republic of Nigeria, and 
we are all very pleased about the progress that is being made 
there with your new government, or President, Chief Obasanjo, 
and you have all of our support and well wishes for continued 
progress.
    Thank you very much, Mr. Chairman, for calling this very 
important meeting today on a hearing of the Lusaka Accords and 
the Congo. It is very gratifying to see a person who has spent 
so much time, my former colleague Honorable Harold Wolpe, who 
has done tremendous, good work in that region and continues to 
be a person that has so much to contribute, and we appreciate 
that.
    We held a hearing you will recall last year, and I remember 
Ambassador Rudasingua of Rwanda testifying at that time, and he 
said that the Congo problem is not one of ethnicity. I do 
believe, however, the crisis is based on these two fundamental 
problems, as he stated: One, the failure to fill the vacuum 
left by the era of the dictator Mobutu Sese Seko, in essence, 
leadership voided at its highest levels; and second, the use of 
Congo by various insurgent groups to destabilize neighboring 
states. Ostensibly, the imminent threat of a resurgence of 
genocide is still there.
    Let me say that I never thought I would see the day that 
two good friends in the Horn, Ethiopia and Eritrea, would go 
into battle, but I never thought I would also see two friends, 
Rwanda and Uganda, also fall on the same path.
    I think we need to get tougher on countries that breach the 
peace and sovereignty of other countries. In that same light, I 
think we need to deal with the real threat to security in the 
region. I am concerned by the recent fighting on Congolese soil 
between insurgents from Burundi with members of the FDD and the 
Palipehutu, and I am concerned about what is going on 
internally in Burundi, because the parties are not signatories 
to the Lusaka cease-fire agreement. This spells disaster for 
all parties that did sign the document in good faith.
    Let me say that this war has wide implications for all of 
Africa. As we know, Congo borders nine countries, and since the 
war in the Congo, the wars in the region have either started, 
resumed or escalated as in Angola, as in the Congo-Brazzaville 
and as in Burundi. Moreover, many of them are havens for the 
genocidaiers, as exemplified in the Central African Republic, 
and some are just too weak to sustain this type of massive 
warfare.
    In conclusion, I would like to read excerpts from a letter 
from President Chiluba of Zambia. He has been chairing the 
mediation efforts on the conflict in the DRC since September 
8th, 1998. He says, ``the people of Congo need peace, and it is 
the duty of all of us in the international community to help 
them achieve it by ensuring that a cease-fire agreement is 
implemented fully and urgently. The United States has a 
significant role to play in mobilizing the support and 
resources required by the United Nations to send peacekeeping 
forces to the Democratic Republic of Congo.'' I would like to 
request that the letter from the President of Zambia be 
inserted into the record in its entirety.
    [The Letter from President of Zambia appears in the 
appendix.]
    Mr. Royce. Thank you, Mr. Payne. We will do that. Well, we 
do want to welcome and commend Ambassador Wolpe for his 
commitment and for his hard work. Dr. Howard Wolpe is the 
President's Special Envoy to the Great Lakes Region. Dr. Wolpe, 
while he was a Congressman from Michigan, was Chairman of this 
Committee for some 10 years, and in addition to his 
accomplishments in Congress, he is also an author of various 
articles and books on Africa, also on American foreign policy 
and the management of regional and ethnic conflict.
    So we want to welcome him back to this Committee.
    Mr. Royce. Ambassador.

STATEMENT OF THE HONORABLE HOWARD WOLPE, SPECIAL ENVOY FOR THE 
     DEMOCRATIC REPUBLIC OF CONGO, U.S. DEPARTMENT OF STATE

    Ambassador Wolpe. Mr. Chairman, thank you very much. It is 
very good to be back before the Subcommittee. I will offer an 
abbreviated opening statement so that there might be maximum 
time to entertain your questions. I would ask that the full 
text of the statement that has been submitted be entered into 
the record.
    Given the recent cease-fire agreement that has been reached 
at Lusaka among the various parties at war in the Democratic 
Republic of Congo and the deployment of the first United 
Nations officers to the region, this hearing provides a timely 
opportunity to take stock both of recent developments in the 
Great Lakes crisis and of American policy toward the region.
    It bears repeating that the war in the DRC is the widest 
interstate war in modern African history and that it has 
significant consequences, not only for 50 million Congolese, 
but for the peoples of all nine countries on the Democratic 
Republic of Congo's periphery.
    The United States has been deeply engaged in the search for 
a diplomatic resolution of the Great Lakes crisis because of 
our recognition of the enormous dangers posed, for Africa and 
for American interests, by a widening of the war and of the 
zone of political instability. Ethnic violence has been a 
feature of recent conflicts in central Africa, and this most 
recent Congo crisis is no exception. Thousands of innocent 
civilians have been killed in the DRC, and interethnic killings 
and even the resurgence of genocide in the Great Lakes region 
are ever-present dangers.
    Much is riding on the successful implementation of the 
recently finalized Lusaka cease-fire agreement. This agreement 
provides the first regionally authored and internationally 
sanctioned road map for the region's political future, a 
coherent, principled and comprehensive framework that addresses 
the principal causes of the Great Lakes crisis.
    Given the complexity of the issues, the multiplicity of 
actors and the deep mutual mistrust and suspicion among the 
principal antagonists, the implementation of the Lusaka Accord 
will inevitably be a messy process. Few, if any, deadlines will 
be met, and every phase will encounter a number of serious 
obstacles. Yet, it is hard to imagine any alternative framework 
that would stand a better chance of resolving the underlying 
fundamental issues. It would be tragic if the Lusaka 
signatories were to walk away from their agreement, or if 
Lusaka would fail to attract the international political 
support and concrete economic and technical assistance that its 
implementation will require.
    The significance of Lusaka lies in its identification of 
four core elements that, from our perspective, are key to a 
sustainable resolution of the Great Lakes crisis.
    First, the Lusaka agreement takes as a starting point the 
affirmation of the sovereignty and territorial integrity of the 
DRC and of all of the surrounding states. All of Lusaka's 
signatories accept that at the end of the day all foreign 
troops will be withdrawn from Congolese soil, the authority of 
the central government will be restored throughout the country, 
and the belligerent Congolese armed forces will be combined 
into a national, restructured and integrated army. There will 
be no partition of the DRC.
    Second, Lusaka recognizes the imperative of a credible, 
neutrally facilitated, inclusive political process to resolve 
the internal Congolese crisis. One of the most important 
elements of the Lusaka agreement is the commitment of the 
Congolese parties themselves to enter into political 
negotiations that have as their goal national reconciliation 
and a new political dispensation. Most important, the Lusaka 
agreements stipulate that these negotiations are to be fully 
inclusive, involving not only the government and the rebel 
groups, but also the unarmed political opposition and civil 
society. Significantly, too, all of the participants shall 
enjoy equal status.
    Mobutu's legacy to the DRC is an institutional and 
political vacuum. There is an urgent need in the DRC to 
reconstitute a national political system, and this will be 
possible only under conditions of security and an inclusive, 
democratic, internal dialogue. The principal political 
formations in the DRC must all be at the table, able to speak 
and advocate freely. All efforts at coerced unity, either by 
armed rebel movements or by the Kabila government, are doomed 
to fail, and will invite only more conflict and violence.
    Third, the Lusaka agreement commits its signatories to 
cooperate in addressing the common security concerns that 
underlie the Great Lakes crisis. Specifically, the signatories 
undertake, and I am quoting, ``to put an immediate halt to any 
assistance, collaboration or giving of sanctuary to negative 
forces bent on destabilizing neighboring countries.'' They 
pledge to take all necessary measures to secure normalization 
among their borders, including the control of illicit 
trafficking of arms and the infiltration of armed groups.
    We welcome this collective commitment because it goes to 
the heart of both the war in the DRC and the broader regional 
crisis. As long as insurgent groups are able to use Congolese 
soil for launching attacks against countries that border the 
DRC, regional peace and stability will be unattainable. It is 
in the interest of all regional states to make a serious and 
combined effort to secure their common borders.
    And fourth, the Lusaka cease-fire agreement commits the 
signatories to work jointly to address the security problems 
posed by the continuing activities of forces identified with 
the 1994 Rwandan genocide.
    No Great Lakes conflict has been more intractable and more 
destabilizing than the bloody confrontation between Tutsi and 
Hutu in Burundi and in Rwanda. In 1972 an estimated 150,000 
Burundian Hutus were the victims of a genocide executed by 
Tutsis. Then, in 1994, well over half a million Rwandans, 
mostly Tutsi but also including Hutu moderates, were 
slaughtered in the genocide organized by the Hutu Government 
then in power. It is difficult to overstate the continuing 
traumatic impact of that event for Rwanda and for the region. 
The failure of the international community to respond at the 
time of the genocide meant that its survivors were literally 
left to their own devices, a conclusion only strengthened by 
the international community's subsequent refusal to act against 
the genocidal killers who took effective control of the 
internationally financed refugee camps in the DRC.
    In the Lusaka agreement, the signatories go beyond a 
rhetorical condemnation of genocide to stipulate that there 
shall be a mechanism for disarming militias and armed groups, 
including the genocidal forces. A regional Joint Military 
Commission made up of belligerent parties themselves is 
empowered to work out mechanisms for the tracking, disarming, 
cantoning and documenting of all armed groups in the DRC and 
for putting in place appropriate enforcement measures.
    Clearly, the disarmament of the various insurgent forces 
operating within the DRC is easier said than done. There was no 
subject more hotly debated in Lusaka, and there remain a great 
number of unanswered questions about precisely how and by whom 
this process will be organized and executed. But one should not 
discount the political significance of this first collective 
regional commitment to mount such an effort. All the parties to 
Lusaka recognized that the ultimate withdrawal of all foreign 
forces from the DRC would hinge upon the region's ability to 
neutralize the security threat posed by the various 
insurgencies and, particularly, by the Rwandan ex-FAR and 
Interahamwe.
    Significantly, the Lusaka agreement combines the threat of 
coercive measures for those who would refuse to lay down their 
arms with incentives for voluntary disarmament and 
repatriation. Recognizing that lasting stability in the Great 
Lakes region requires democratization and reconciliation not 
only in the DRC but also in its neighboring countries, Lusaka 
calls upon the countries of origin of the insurgent fighters to 
help create conditions that would encourage their voluntary 
repatriation.
    Mr. Chairman, the Lusaka cease-fire agreement is a complex 
document, leaving open as many questions as it answers, and it 
is clear that implementation will be neither neat nor swift. 
Nonetheless, the Lusaka accord is a vitally important 
beginning, embracing all of the critical elements of a 
sustainable resolution of the Great Lakes crisis: respect for 
the sovereignty and territorial integrity of all of the 
regional states; the establishment of credible and inclusive 
transitional institutions and processes within the DRC; a 
commitment on the part of all regional states to work 
cooperatively to secure their common borders and to ensure that 
the DRC is no longer used as a base for launching insurgent 
attacks; and a regional determination to join in neutralizing 
the genocidal threat of the Rwandan ex-FAR and the Interahamwe.
    The region needs a stable DRC, a DRC that has sufficient 
administrative and military capacity to ensure that insurgent 
groups will not operate with impunity on Congolese soil. That 
stability cannot be imposed from without. No Congolese 
rebellion that is clearly understood to be dependent upon its 
external patrons will acquire political legitimacy among the 
Congolese people. Continued occupation of Congolese soil will 
lead to heightened hostility and interethnic conflict, threaten 
to widen rather than contain cross border attacks and regional 
warfare, and invite the animus of a broad swath of Africa and 
of the international community. A stable DRC will emerge only 
from a credibly inclusive political process, such as that 
prescribed by the Lusaka agreement, that will enable the 
Congolese to claim control of their own destiny and political 
future.
    In Lusaka, the Kinshasa government made a number of 
difficult but important concessions. But the Kinshasa 
government is currently sending very mixed messages. On the one 
hand, Kinshasa continues to affirm its interest in moving 
forward on the internal dialogue, explicitly welcoming the 
proposed neutral facilitation of the national dialogue. On the 
other hand, continuing arrests and harassment of party and 
human rights activists and a new decree that appears to permit 
open political activity only within the framework of the 
government-sponsored People's Power Committees, suggest a 
continued effort to restrict open debate and to manipulate the 
negotiating framework.
    The United States will continue to appeal to Kinshasa to 
abide by both the spirit and the letter of the Lusaka Accord. 
Arbitrary actions by Kinshasa authorities only exacerbate 
political tensions and make more difficult the flexibility and 
compromises that will be required on all sides.
    Let me now say a few words on immediate next steps. Now 
that all the belligerent parties have signed the Lusaka 
agreement, implementation can begin, and among the critical 
next steps are the following:
    Finalizing the membership of the Joint Military Commission, 
by resolving the debate within the RCD as to who will be its 
representatives on the Joint Military Commission.
    Second, identifying a neutral facilitator for the Congolese 
internal dialogue.
    Third, completing the initial United Nations deployment. 
The U.N. security council has authorized the deployment of up 
to 90 military liaison officers to the DRC, to Lusaka and to 
the capitals of the warring nations. Their mission will be to 
determine how the United Nations might most effectively assist 
the Lusaka signatories with the implementation of the cease-
fire agreement. Now that all the parties are formally signed on 
to the cease-fire and the cease-fire generally appears to be 
holding, U.N. military liaison officers are being deployed to 
the belligerent capitals, to Lusaka and to 15 locations within 
the DRC itself. Their neutrality and expertise, we believe, 
will strengthen the peace process and help the JMC, build its 
capabilities and confidence for its day-to-day management of 
the cease-fire.
    And fourth, the immediate next step, deciding on how and by 
whom both peacekeeping and peace enforcement tasks will be 
executed. Any firm conclusions on the appropriate size and 
mandate of a follow-on peacekeeping presence must await the 
report of these liaison officers and of a related assessment 
mission that Secretary-General Annan intends to send. But it is 
virtually certain that the Security Council will reject the 
Lusaka signatories' urging that a U.N. peacekeeping force be 
empowered not only to monitor the cease-fire and withdrawal of 
foreign troops, but also to engage militarily insurgent 
fighters that refuse to lay down their arms. While the Security 
Council may generally support a Secretary General's 
recommendation for deployment of U.N. observers, under Chapter 
VI of the U.N. charter, it most probably will insist that the 
Joint Military Commission, that is, the belligerent parties 
themselves, retain the enforcement responsibility.
    The fifth immediate task is securing the appointment of a 
United Nations Special Representative. Appropriately, it has 
been the Southern African Development Community, SADC, and 
especially Zambian President Chiluba, that have taken the lead 
in facilitating a cease-fire agreement. But the OAU, United 
Nations, the European Union, United States and other countries 
have all been deeply involved in supporting the Lusaka 
diplomacy, encouraging the belligerent parties to be flexible, 
and working to narrow differences in perception and 
understanding. Now that a cease-fire agreement has been 
reached, sustained international engagement with the Great 
Lakes peace process will be more important than ever. The 
pending appointment of a United Nations Special Representative 
for the Congo will provide a means of coordinating both the 
international diplomatic support and the technical and 
financial assistance that effective implementation of the 
Lusaka Accord will require.
    Finally, a word about the areas requiring international 
support and assistance. There are at least seven distinct areas 
that are distinguishable. First, continued diplomatic 
engagement with the parties to the conflict. The deep 
suspicions and mutual distrust that characterize interstate 
relations within the Great Lakes will require continuing third 
party assistance and encouragement to overcome.
    Second, deploying U.N. observers. It is virtually certain 
that the Secretary General will recommend the deployment of 
U.N. observers under Chapter VI of the U.N. charter, and while 
final decisions must await the pending United Nations reports 
and close consultations with the Congress, as the President 
indicated some months ago the United States is inclined to 
support an appropriately sized and mandated mission.
    Third, establishing an enforcement mechanism. The 
enforcement responsibility will almost certainly remain with 
the Joint Military Commission and a contemplated military task 
force that will be established under its aegis. This regional 
multinational force, to be comprised of troops from 
belligerent, and possibly non-belligerent, countries may seek a 
United Nations mandate. While we would consider supporting that 
mandate, any such force would have to be funded through a 
mechanism such as voluntary contributions to a trust fund 
rather than through expenditure of the U.N. funds. The Lusaka 
signatories will be counting on international financial and 
logistical support.
    Fourth, Congolese internal negotiations. The Congolese 
participants in this process will require the sustained 
encouragement and assistance and, at times, the political 
pressure of the international community.
    Fifth, the Congolese transition, elections and 
reconstruction. Once the negotiations are concluded and the 
transitional institutions are in place, a massive effort will 
be required to launch the DRC on the path to democratization 
and economic reform. The DRC's World Bank trust fund will need 
to be reactivated as a quick disbursing mechanism for vitally 
needed local development assistance; bilateral donors will have 
to step up to the plate to assist the DRC in addressing its 
long term development challenges, and the international 
financial institutions will need to be fully engaged in 
reconstructing the economy. At the same time, the transitional 
DRC government will have to do its part in upholding the rule 
of law, in protecting the human rights of its citizens, and in 
making clear its commitment to honest, transparent, democratic 
and accountable government.
    Sixth, an international conference on the Great Lakes. Once 
the inter-Congolese political negotiation is concluded and 
reformed transitional institutions are functioning, the 
regional states may welcome new mechanisms, such as an 
International Conference on the Great Lakes, that might 
facilitate greater regional collaboration on issues of common 
concern.
    Seventh, the International Coalition Against Genocide. 
Regional leaders and President Clinton, at their Entebbe 
meeting in March 1998, agreed to explore the creation of an 
International Coalition Against Genocide, a coalition that 
would seek to mobilize the resources of concerned states in a 
systematic effort both to enforce anti-genocide measures and to 
prevent a recurrence of genocide in the region.
    The Lusaka agreement gives the concept of an International 
Coalition Against Genocide immediate relevance. The coalition 
could become a forum for more effective coordination of 
international efforts to support the anti-genocidaire 
provisions of the Lusaka agreement.
    Mr. Chairman, the regional states at Lusaka were able to 
transcend the mutual suspicions and antagonisms of the moment 
to develop a common vision of the way forward, but Lusaka is 
only the beginning of a beginning. As difficult as it was to 
achieve agreement, the effective implementation of the Lusaka 
Accord will pose far more formidable challenges. A rocky road 
lies ahead, and considerable patience, courage and creativity 
will be required on all sides.
    The United States will also have to remain fully engaged, 
joining with others in the international community in providing 
both diplomatic encouragement and material assistance as the 
peace process evolves. Either we are prepared to invest now in 
Great Lakes conflict resolution, taking advantage of the 
opportunity provided by the Lusaka Accord, or we will be 
required to pay far more later in responding to much more 
costly humanitarian, economic and political disasters.
    We intend to continue working with our African partners in 
their collective undertaking to establish peace in the Great 
Lakes region. We see American engagement not only as a moral 
imperative but also as in our own national interest, as it is 
in the interest of the global community, to support efforts to 
build stable, democratic and economically self-reliant nations.
    Mr. Chairman, that concludes my opening statement, and I 
thank you for your attention.
    [The prepared statement of Ambassador Wolpe appears in the 
appendix.]
    Mr. Royce. Thank you, Ambassador Wolpe. Let me ask you a 
couple of questions if I could at this point. Last September we 
had Assistant Secretary of State Susan Rice with the Committee, 
and she said that the United States condemns any violation of 
Congo's sovereignty and territorial integrity. In your 
testimony you mention that the U.S. policy is to assure the 
territorial integrity of the Congo. Yet critics say that the 
United States has acquiesced to Uganda and Rwanda's military 
intervention in Congo, and now we have a peace agreement that 
formalizes their security role in Congolese territory, which is 
a fairly substantial compromise of sovereignty. Have we 
publicly condemned Uganda and Rwanda for their military 
intervention in Congo, and if we have not publicly condemned, 
why have we not done so?
    Ambassador Wolpe. Mr. Chairman, we have in fact condemned 
the intervention of Rwanda and Uganda in the Congo as a 
violation of the fundamental principles of the U.N. charter and 
of the OAU Charter, and we have expressed both in diplomatic 
channels and publicly our determination to see the territorial 
integrity and sovereignty of the Congo restored. The agreement 
to which you refer, I would not characterize the Lusaka 
agreement as somehow constituting an extension of the violation 
of the principles of sovereignty and territorial integrity. To 
the contrary, the Lusaka document could not be more explicit in 
affirming those fundamental principles and in making clear that 
there is a timetable for the total withdrawal of all foreign 
forces from the Congo.
    There are other issues that need to be addressed if that 
resolution of the Congolese conflict is, in fact, to be 
sustainable, and so the Lusaka Accord also recognizes other 
issues that underpin the conflict, most notably the operation 
of insurgent forces from within the Congo directing attacks 
against other nations of the region. Sovereign countries have 
an obligation to prevent such attacks that can jeopardize the 
security of their neighboring states.
    So we have a number of agendas, a number of objectives that 
we and the Lusaka signatories together are seeking to achieve: 
restoration of the sovereignty, territorial integrity of the 
Congo; prevention of the resumption of any genocide and holding 
accountable genocidaires; and finally, securing the borders of 
the Congo and of all of the neighboring states.
    Mr. Royce. Well, I noticed, Ambassador, that we had made 
comments in generalized terms. I had not noted that we had been 
specific, but if we are being specific, I think that is a step 
in the right direction.
    My second question I would ask is, you know, the World Bank 
suspended aid for Congo pending a cease-fire, and the World 
Bank aid to Ethiopia and Eritrea has been suspended because of 
their war. Why was the World Bank aid to Rwanda and Uganda not 
suspended to get them to the table?
    Ambassador Wolpe. I think that the answer to that is Rwanda 
has met a number of the World Bank criteria. What the Rwandans 
have done with respect to responding to the 1994 genocide is 
rather remarkable. I believe that it makes sense that effort be 
sustained, and I think that the World Bank has been focused on 
assisting the efforts at reintegrating those who had moved out 
of the country. The efforts at addressing issues of justice, of 
moving beyond the genocide to national reconciliation, are 
efforts requiring support. But I cannot speak of course for all 
of those who were involved in the World Bank determination and 
decision. But from an American perspective, these are among the 
objectives we seek to advance in Rwanda.
    We also seek to assist the region and encourage the region 
to collectively begin to work together to address the problem 
of insurgencies that have been mounted from within the Congo, 
to address once and for all time, the lack of full 
accountability for those who directly inspired the 1994 
genocide. Those objectives, we think, are meritorious as well.
    Mr. Royce. I concur, but my point here is in using leverage 
to make certain we reach that objective and being prepared to 
use that leverage.
    Another question I was going to ask about was a report by 
Reporters without Borders, which is a Paris based media freedom 
watchdog group, and they stated last week that more than 80 
journalists have been locked up for varying lengths of time 
since President Kabila took power in May 1997. Indeed, our 
delegation was there in May 1997, and while we were there, 
there was a reporter who was arrested and locked up at that 
time, and this is only one example of political oppression by 
the Kabila government. Is the U.S. Government weighing in on 
this and on other government offenses against political freedom 
in Congo?
    Ambassador Wolpe. The answer, Mr. Chairman, is yes. We have 
done so diplomatically. We have spoken to our concerns 
publicly. We have done so today as you will note from the 
testimony that I have presented. We believe that the only hope 
for the Congo is to develop the conditions that can permit a 
fully inclusive and open debate about the Congolese future that 
is conducted by the Congolese themselves. Actions that appear 
to be designed to threaten those with divergent viewpoints are 
enormously counterproductive. We are hoping that the government 
and all of the parties will work to create an atmosphere that 
can ensure that the national debate can produce the kind of 
decisions that will be fully accepted by the Congolese 
population and become a basis for the kind of inclusive 
transition that is the only hope for a stable Congolese future.
    Mr. Royce. Very good. Another question I wanted to ask you, 
Ambassador Wolpe, and this will be my last question, but there 
have been press reports that North Koreans are at the Likasi 
uranium mine in Congo, and let me ask you if that is 
significant and if we have a confirmation on those reports 
about North Korean activity at those uranium mines.
    Ambassador Wolpe. We have seen reports of a North Korean 
presence of perhaps a few hundred people. Today I cannot give 
you any precision the location or the nature of those 
activities, but we have seen those reports.
    Mr. Royce. And my question about the significance of this, 
given some of our concerns, for those of us that serve on the 
Asia Subcommittee as well and are monitoring the situation in 
North Korea, our government, I take it, is monitoring this 
situation with respect to whether uranium is leaving the 
country?
    Ambassador Wolpe. I assume that is the case, Mr. Chairman, 
but that dimension is a bit beyond my own expertise here. It is 
certainly very much on the radar screen generally.
    Mr. Royce. OK. Well, thank you, Ambassador Wolpe. I will 
turn to our Ranking Member, Mr. Payne, at this time.
    Mr. Payne. Thank you very much. Thank you, Ambassador 
Wolpe, for that very comprehensive report. Some of the concern 
I have is about the Joint Military Commission, and if you could 
try to clarify the Joint Military Commission, and I think in 
the original is still a part of the Accord, that a force would 
be made up of all of the belligerents, and this force would go 
to try to disarm the Interahamwe and ex-FAR, and this would 
precede a United Nations contingent, because the U.N. would be 
under Chapter VI and not Chapter VII as in Kosovo and East 
Timor and all of that. So the difference between peacekeeping 
and peace enforcing of course is a vast difference. And 
finally, if this force does not come about and much of the 
problem in the region is a security concern of Rwanda with the 
cross border infliction from the ex-FAR and the Interahamwe, 
then would you conclude that if all fails there would be a 
continued pursuit of ex-FAR and Interahamwe by the forces of 
Rwanda?
    Ambassador Wolpe. Thank you, Mr. Payne, for some very 
important questions. Let me clarify a few of the elements of 
the Lusaka agreement as we understand them. First of all, the 
JMC, the Joint Military Commission, is led by a political 
Committee that is comprised of two representatives of all of 
the belligerent states. It is contemplated that under the 
auspices of that JMC there will be eventually constituted a 
regional military force comprised not necessarily only of 
belligerent states; it is conceivable that other nations would 
become part of that force.
    The distinction as between the regional African force and 
the United Nations peacekeeping force, is less in terms of 
sequence and more in terms of function. The United Nations 
peacekeepers would have the functions of observation; of 
monitoring the cease-fire, the withdrawal of troops, the 
separation of forces. If an enforcement action becomes 
necessary, that would be a function of a different force, and 
one of the issues that would have to be addressed in this two-
managed approach would be the integration of the two 
operations. It is not unprecedented, but that is the way it 
would work.
    The other thing I would say is that it is not just the ex-
FAR and Interahamwe that would be the subject of enforcement if 
that becomes necessary. In fact, the Lusaka agreement 
specifically identifies a number of forces that would have to 
be disarmed under the terms of this agreement, including some 
of the Sudanese supported anti-Ugandan insurgent forces, 
including UNITA operations in the Congo if there were any, 
including the Burundian FDD rebel force and so on.
    The other comment I would make is that the other 
signatories are hoping and anticipating that much of the 
disarmament activity may occur without the need for a coercive 
of response. That is why there is language within the Lusaka 
Accord calling upon the countries of origin of the insurgent 
groups to help establish conditions within their own countries 
that would encourage voluntary repatriation and reintegration.
    The answer to your last question is that clearly the 
greater the regional cooperation, and the deeper the regional 
commitment to make disarmament of these insurgent forces an 
achievable objective, the lesser will be the danger that there 
will be a continuation of the conflict that has been so 
destabilizing.
    Mr. Payne. Well, thank you very much. I will yield the rest 
of my time.
    Mr. Royce. We are going to go to Mr. Hastings of Florida.
    Mr. Hastings. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing. Congressman, Ambassador, friend, 
Mr. Wolpe, thank you for the extremely comprehensive report 
that you gave us. I would like to ask you to respond to queries 
put with reference to whether or not the resources are being 
extracted from the land in the Congo by forces who do that kind 
of mining. The Chairman put to you the question about Korea, 
but are Congo and Rwanda involved at all in exploiting diamond 
resources, other resources in the Congo at this time, to your 
knowledge?
    Ambassador Wolpe. I think there is some evidence that 
virtually all of the countries that have entered the Congo have 
either engaged in some immediate direct exploitation, sometimes 
as a matter of entrepreneurial activity by local military 
people, other times as a matter of government policy. Clearly, 
a number of the countries that are engaged in the Congolese 
conflict are contemplating or anticipating a gain at the end of 
the day, if not immediately, through the exploitation of the 
Congolese resources. There has been a lot of that kind of free 
occupation, I think, on the part of all the states that are 
involved.
    Mr. Hastings. All right. Thank you very much. Let me go and 
ask you if you would have in hand your page 8 of your statement 
and testimony submitted to us and the final three paragraphs 
where you deal specifically with the United States and the 
Great Lakes. Let me walk through that with just a couple of 
questions with you, if you would be so kind, and a final one of 
dealing with the suggestion that you made with reference to a 
trust fund for any support that may come.
    I don't know personally, and I am not questioning that, 
whether precedent exists for that within the framework of the 
United Nations or the international monetary system, and if so, 
I would like to know what it is. But before that, when you say 
the United States will also have to remain fully engaged, my 
question is what are our intentions regarding engagement beyond 
your personal jurisdiction and that of the Under Secretary and 
others who have demonstrated commitment in this Great Lakes 
region?
    Additionally, when you say that we should join with others 
in the international community in providing both diplomatic 
encouragement and material assistance as the peace process 
evolves, my question is, are we going to join with others or 
are we going to enjoin others, enjoin meaning are we going to 
lead other people to join since people look to America or are 
we just going to wait for something to develop and then say 
that we are supportive?
    And in addition thereto, when you talk in terms of material 
assistance, what is the material assistance that we are willing 
to provide, and what shape would that take? And I agree with 
you, either we need to invest now in the Great Lakes conflict 
resolution or we are going to invest a lot more later on. I 
know what shape the later on takes, but what do you mean when 
you say that, invest now? I understand you say that's what we 
should do, but what?
    Ambassador Wolpe. Thank you very much, Congressman 
Hastings. I want to take you back to the beginning of the 
Kabila government. If you will recall, even then we were fully 
cognizant of the enormous importance of the Congo, a country 
which is bordered by nine states. What happens in the Congo 
will impact greatly upon all of southern, eastern and central 
Africa and, therefore, impact upon Africa and American 
interests in the region. So we were hopeful at the time of the 
ouster of Mobutu that a new set of possibilities had come upon 
the scene. We wanted to help that process succeed, and so we 
were among the leaders in urging the creation of a World Bank 
trust fund that could become a means of quick disbursing 
assistance to the Congo. We and others fully intended to 
participate.
    We established an assistance mission, several different 
offices in fact, within the Congo to work at the local level, 
to help build capacity, to help encourage the transitional 
process, and we made very clear that our fundamental desire was 
to have sufficient stability within the Congo as to permit a 
fully engaged effort in assisting with the reconstruction and 
the development of the Democratic Republic of Congo.
    I put all of that in historical context to say that our 
policy, and our sense of importance that we would attach to 
developments in the Congo, remain the same. That is why I was 
revisiting here the things we had wanted to do then. 
Unfortunately, developments on the ground in the Congo made 
that impossible. Either here with significant concerns with 
respect to human rights violations, or the economic policies 
that were being pursued by the government were problematic to 
say the least. Even as we speak, the government has not moved 
to implement the economic plan that had been presented to the 
Friends of the Congo meeting that had taken place in Europe in 
early 1998, which was the basis for the establishment of the 
trust fund.
    Any kind of effective international partnership requires a 
partner. That is why I stress, even as I indicated our 
intention to reengage, once you have transitional institutions 
in place that have some structure and some substance and some 
stability, it will still require Congolese to be good partners. 
They will have to establish the conditions of governance and 
human rights and in terms of economic policy, that will enable 
our assistance to make a difference.
    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Hastings. Thank you, Ambassador. 
We are going to go to Mr. Tancredo, and then to Mr. Meeks and 
then to Mr. Campbell. Mr. Tancredo of Colorado.
    Mr. Tancredo. Thank you, Mr. Chairman. Ambassador Wolpe, 
thank you very much for your testimony. You indicated that you 
believe there would be close cooperation, I think those were 
your words, close cooperation or consultation with the Congress 
regarding any potential for United States support or 
participation in a peacekeeping operation in the Congo. Would 
you tell me, sir, how you come to that information or 
knowledge? Is it just your observation what would probably 
happen?
    And then second, if you could help me out by describing in 
more detail exactly what you think that close cooperation will 
actually look like.
    Ambassador Wolpe. I am not sure I quite caught the thrust 
of your question. Are you referring to cooperation with 
Congress?
    Mr. Tancredo. Yes, cooperation with Congress.
    Ambassador Wolpe. What I was saying is we cannot move 
forward without congressional support, and as the phases of 
this process evolve, decisions with respect to peacekeeping 
will be made in the closest consultation with the key 
Committees of the Congress that are involved in this area. That 
is what I meant to say.
    Mr. Tancredo. OK. In consultation with the Committees. 
Well, along those lines, if all the parties to a conflict are 
not in agreement, and certainly in the Congo there are groups 
who will never apparently support the Lusaka agreement, then 
isn't any peacekeeping operation a Chapter VII operation by 
definition?
    Ambassador Wolpe. No, you could have a Chapter VII mandate 
extended to a regional force. That is what has happened in East 
Timor and that is what has happened in Kosovo. Effectively, 
rather than establish a Chapter VII United Nations force, a 
unmandate is extended to a regional force. That is how you 
would address the enforcement dimension in the Congolese 
conflict. The direct United Nations force would operate under 
Chapter VI with a more limited mandate.
    Mr. Tancredo. I see. Thank you, Mr. Ambassador. I have no 
other questions.
    Mr. Royce. We go to Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman, for this hearing. Mr. 
Ambassador, I want to pick up somewhere where Congressman Payne 
was talking about. I am interested in trying to have peace in 
the Congo, and based upon the Lusaka peace agreement, where the 
U.N. is to be involved with reference to overseeing what is 
going on there. From my understanding, and I don't know whether 
you mentioned this prior to me coming in, there has not been 
any guarantees of the safety of the U.N. observation mission in 
the Congo and that it, therefore, has not deployed any 
personnel to any combat zones, and I understand there is at 
least 20 or so liaison officers that have arrived in Kinshasa 
last week and they are still awaiting to meet the Congolese 
officials.
    I was wondering if you could shed any light on why the 
delay and what is happening there.
    Ambassador Wolpe. Sure. Thank you very much, Mr. Meeks. The 
process of deployment of United Nations military liaison 
officers has been delayed in part because of the failure of one 
of the rebel groups to resolve the issue as to who should sign 
the final document. Those signatures are now in place, and it 
appears that the cease-fire is generally holding. There has 
been some repositioning, some reinforcement of troops, but no 
significant fighting has taken place recently, and we 
anticipate that as the security conditions permit the United 
Nations military liaison observers will now be able to be 
deployed in other parts of the Congo itself.
    There are about I think 25 observers thus far that have 
already been deployed in a number of the belligerent capitals, 
including Lusaka and, as you note, in Kinshasa as well. Now 
that we have passed the issue of the signatures, it should be 
possible to move more speedily under conditions of greater 
security. But you are quite right: the condition of security 
must exist to permit that kind of deployment.
    Mr. Meeks. So do you believe that the United Nations will 
be able to meet its 120 day deployment deadline?
    Ambassador Wolpe. I think there you are referring to what 
is stipulated in the Lusaka agreement, contemplation of the 
full deployment of the United Nations observer presence force 
within 120 days. It is very difficult to predict with certainty 
at this point, but what we are doing and what I know other 
interested parties are doing is to encourage the swiftest 
possible deployment because that will, I think, directly 
contribute to confidence building and to permitting the peace 
process to go forward on the ground. But it is very difficult 
to predict with any certainty any specific timeframe that has 
been laid out.
    Mr. Royce. Thank you. At this time we will go to Mr. 
Campbell of California.
    Mr. Campbell. Mr. Chairman.
    Ambassador Wolpe. Mr. Chairman.
    Mr. Campbell. I want to let the Ambassador finish.
    Ambassador Wolpe. Thank you, Mr. Campbell. Just to add one 
other note, just so there is no confusion, at this point in 
time the United Nations has deployed not observers but military 
liaison personnel officers to do the work of identifying what 
the needs really are and how the United Nations might most 
effectively meet those needs.
    Mr. Royce. Very good. Mr. Campbell.
    Mr. Campbell. I just begin by saying thanks to you for 
holding this hearing, and it is not your first. You have 
maintained a great interest in this field. I remember the 
hearing that focused on the potential use of hate radio in this 
context, and it is just very good to see a Chairman care so 
much as you do, not to mention a Ranking Member of such 
knowledge and distinction as my colleague.
    My three questions, I am going to state at the beginning 
and then would like you to take them as you will. First, do we 
have any interest from third countries in providing the 
military that is at least permitted in the Lusaka Accord for 
the demobilizing and the arrest of potential genocidaire?
    Second, what in heaven's name is Zimbabwe up to? I cannot 
figure this. Maybe you can be candid on the record, which is 
sometimes not possible.
    And third and last, it would concern me if there were any 
further occurrence of hate radio references to the ethnic 
Tutsi-Hutu distinction, for example, with the reflection in the 
war, and I wonder if you have any evidence that has recurred 
from what we were told existed at the beginning of the civil 
war.
    So those are the three questions, and I will be happy to 
take your answers in any order you wish, and by the way, thanks 
for the good work you are doing. I have the highest admiration 
for it.
    Ambassador Wolpe. Thank you very much, Mr. Campbell. We 
appreciate the travel you and Mr. Payne have undertaken. The 
conversations you have had in the region have helped, I think, 
to communicate Congressional concern and interest. It has been 
a very important part of this overall diplomatic effort. So I 
thank you both.
    First of all, we have been told that a number of countries 
have signed up for and indicated their willingness to make 
elements of their forces available for peacekeeping. I have not 
seen a breakdown as to whether the offers of any of these 
countries go beyond the observation mission of the United 
Nations. So the answer is we don't know yet. But we do 
understand there has been a quite good response among African 
states to the request that countries participate in 
peacekeeping generally within the Congo.
    Your question regarding Zimbabwe was rather open ended. 
Zimbabwe is a signatory to the Lusaka agreement. I was 
impressed, having been present in Lusaka, with the very great 
seriousness that Zimbabwe and all of the other state actors, as 
well as the Congolese players who were participating in the 
negotiations, how seriously they took the process. It was a 
difficult negotiation, and it was difficult precisely because 
the principal parties were very careful about the language that 
was inserted into the document. They wanted to have some 
confidence that they could live with the language in the 
document. Their seriousness was very much in evidence in 
Lusaka. Some of the key meetings, for example, took place 
without facilitators or observers. That in itself is normally a 
sign of seriousness of purpose. So that is why we say that this 
is an important document and an important beginning.
    Mr. Campbell. I will interrupt if I may just to tell you 
what I had in mind. I didn't understand with the economy 
Zimbabwe has, why they were putting troops into a war in Congo, 
nor did I understand the side that they chose, and it is really 
that which I was getting at.
    Ambassador Wolpe. Well, the Zimbabweans have stated very 
publicly and also in our diplomatic conversations that they 
felt very strongly that there had been a violation of the 
territorial integrity and sovereignty of a fellow SADC member, 
and President Mugabe felt an obligation in his role as chairman 
of the security organ of SADC to respond. That is what they 
have stated rather consistently.
    They have also stated now their desire to secure a 
negotiated settlement and a sustainable resolution of the 
conflict. So we look forward to working with Zimbabwe, with all 
of the parties to the Accord, in trying to find our way through 
to that kind of sustainable settlement.
    Mr. Campbell. Hate radio was the last question.
    Ambassador Wolpe. On that last question, I have not seen 
the reports to which you allude. We can certainly find out if 
there is anything.
    Mr. Campbell. Hearings by this Committee, by this 
Subcommittee early on in the conflict.
    Ambassador Wolpe. That was a long time ago, at the very 
outset. We have not seen any recent reports.
    Mr. Campbell. Nothing since.
    Ambassador Wolpe. We have not seen anything recent of that 
sort.
    Mr. Campbell. Thank you, Mr. Chairman.
    Mr. Royce. Let me just say that I think it was very 
instructive of Mr. Campbell bringing to our attention the 
original hate broadcast, but not just to the attention of the 
Congress and the Administration. He also brought this to the 
attention of the government in Congo and specifically to the 
Minister of Human Rights and had an ongoing dialogue. It is our 
hope that very constructive dialogue continues to guarantee 
that we do not hear further hate radio broadcasts directed 
against ethnic groups in Congo.
    We want to thank you very much, Ambassador, for your 
testimony here today. You have had a very difficult task that 
you have been given, and we appreciate your commitment. We look 
forward to working with you in the future on this very complex 
problem, but as you say, it is imperative that this Committee 
and Congress be part of the Administration's thinking that we 
work together, and so we invite you to continue the dialogue 
with members of this Committee as we move forward, and again, 
very much appreciate your testimony today.
    Ambassador Wolpe. Mr. Chairman, let me express my 
appreciation to you and to the Members of your Committee both 
for the timing of this hearing and for your continued interest 
in what is, in fact, one of the most difficult and critical 
issues facing the entire continent. Thank you very much.
    Mr. Royce. Thank you, Ambassador. We are now going to move 
to our last panel, and we are going to ask our panelists to 
understand that we have written copies of your report to the 
Congress. We have read those, and we will put them in their 
entirety into the record, and so we ask you to please abide by 
the 5 minute rule because that will then allow the Members here 
to engage in questions, follow-up questions, and the Members 
have, as I indicated to you, already read your testimony, and 
so it would be most helpful if you focus in your 5 minute 
summation on positive ideas in terms of going forward, what can 
be done now, what recommendations you are going to give us.
    On our second panel we are going to have Dr. William 
Zartman, Director of African Studies and Conflict Management at 
the Paul Nitze School of Advanced International Studies in 
Washington D.C. Dr. Zartman has written extensively on 
negotiation and conflict in Africa. Dr. Zartman has testified 
before the Subcommittee before, and we welcome him back.
    And also we have Mr. Mwabilu Ngoye. He is a doctoral 
student at Rutgers University at present. He is the President 
of the Congolese International Union, a nonprofit organization 
that aims to represent and articulate a broad spectrum of 
political views, Congolese aspirations for national unity and 
of democracy, and I thank him for coming down from New Jersey 
and sharing his experiences with us today.
    And so we will begin with Dr. Zartman.

 STATEMENT OF DR. WILLIAM ZARTMAN, DIRECTOR OF AFRICAN STUDIES 
   AND CONFLICT MANAGEMENT, SCHOOL OF ADVANCED INTERNATIONAL 
               STUDIES, JOHNS HOPKINS UNIVERSITY

    Dr. Zartman. Thank you, Mr. Royce. It is a pleasure to be 
here again, and I would like to express the admiration of 
Africanists, people interested in the area, for the bipartisan 
leadership that this Committee has shown in its attention to 
African affairs and also the knowledge that it shows about what 
is going on in Africa. I will try to be uncharacteristically 
brief and just pick up a couple of highlights of my written 
testimony, particularly after Howard Wolpe's very good summary 
of the situation.
    I think it is fair to characterize the Lusaka agreement as 
a cease-fire of fatigue and stagnation. The war just didn't go 
anywhere and people wanted to get out of it. But they are also 
left with their original goals of getting in, and the Lusaka 
agreement has a number of uncertainties and loose ends that 
don't condemn the agreement but leave us with an awful lot to 
deal with in the coming months and even years, I think that is 
the aspect that we should be looking at, and probably under an 
awful shadow that hangs over us. There was another Lusaka 
agreement in 1994 that supposedly brought peace for the third 
time to Angola next door and it has fallen apart, an awful 
omen. We certainly hope that what has gone on with that same 
name will not arrive at the same conclusion.
    A number of uncertainties that I would highlight. First of 
all, it is not clear what the rebellion was about and what it 
took to be satisfied or rather it is clear that there are a 
number of motives in the rebellion but the mix is not certain. 
Certainly, people were involved for personal and political and 
economic enrichment reasons. Other people were involved simply 
because they couldn't stand the inefficiencies of the regime 
that were going on in Kinshasa, and then the support from the 
outside came because neighboring states had valid concerns 
about the way the Congolese territory was being used against 
them. So there were real security concerns, and how these will 
be satisfied in the aftermath of the Lusaka agreement is not 
certain.
    It is not certain that the government of President Kabila 
and President Kabila himself has the ability to carry out the 
kind of opening up that is at least promised or the hope of 
which exists in the Lusaka agreement. Certainly, the behavior 
of the government toward its opposition, toward civil society 
groups over the past 28 months in which he has been in power, 
has not been a prima facie promise of a very good opening, and 
those bona fides have to be shown.
    It is not sure, too, what the mix is of neighboring aims. I 
mention the security concerns and there are also concerns, as 
one of the questions asked, about economic enrichment, and 
these two will have to be somehow satisfied or at least brought 
under control.
    The Lusaka agreement has a number of loose ends that are 
important to consider as it goes into implementation. It is 
committed to pursuing and disarming the rebellion, the armed 
groups as they are called that have found sanctuary in the 
Congolese territory, but armed forces of the neighboring 
countries have not been able to do this, and there is somewhat 
of a perhaps pious hope that the neighboring countries will be 
able to attract these rebellions into some kind of process of 
return. There is a big challenge there.
    There is on the other hand very little mention--perhaps an 
allusion, but no real mention--of a reconciliation process 
within the neighboring states, of pressure on the Ugandese, the 
Rwandese and so on, to make peace at least with the parts of 
their opposition that they can bring back into their fold. As 
Howard Wolpe said, the home states are urged to encourage 
voluntary repatriation, but it takes more than that to invite 
these people home particularly when they are threatened with 
often a justified death sentence.
    The round table or dialogue that is supposed to take place 
within Congo itself is something that is lagging now in its 
timetable. By mid-October talks are supposed to be started. 
Fifteen days after the signatures there was supposed to be 
agreement on a mediator. None of this has occurred, and if you 
can believe it, at the end of November, there is to be a new 
political system that is to be set up within Congo. Somebody 
asked about the 120 days. I don't believe that we will make 
this 90 day deadline after the agreement has been signed.
    The agreement also talks about a regional conference to 
solve some of the security problems, and these also need a 
venue and a sponsor. SADC is a biased mediator. It has been 
able to bring off an agreement, but it is a club of parties 
that are associated with one side of the conflict, and it is a 
little hard to leave mediation to parties to a conflict. 
Similarly, it will be difficult to leave the convening of a 
conference in the whole area, an effective solution or even 
effective consideration of the security problems, in the hand 
of SADC.
    In U.S. policy concerns, I think there are two things that 
are particularly important and worth emphasizing. When you go 
to Congo, you hear everybody tell you that it is time for the 
international community to take its responsibilities. On one 
hand that is an escapist kind of phrase. This conflict is the 
result of the lack of Congolese taking their responsibilities, 
government, oppositions and so on, and that is where 
responsibility lies. But on the other hand, that phrase is 
true. The international community, and in these halls that 
means the United States, has certain responsibilities. I think 
there are two things that can be emphasized.
    It is extremely important to get Congolese to talk to each 
other. The United States has a position of authority in the 
area, in the world, within that region itself, within the state 
itself. It can do much more to simply get dialogues going, in 
informal kinds of ways, and get the armed opposition, the 
government, the unarmed opposition and civil society discussing 
together. Otherwise, if nobody tries to pull them together, 
there are conflicts that have torn up internal politics in the 
past and those conflicts will not be overcome.
    Local groups are trying to do it. In Kivu that we have 
talked about, there are local attempts to come together over 
ethnic differences. Some assistance is needed. The government 
needs some encouragement to recognize those kinds of 
activities.
    The other thing is the peacekeeping force. I think it bears 
repeating again and again that we have got blood on our hands 
for what we didn't do in Rwanda in 1994 and what we didn't do 
in Congo-Brazzaville in 1997, and we have got to get over that. 
We have got to give Africans the same kind of treatment that we 
give an area such as Kosovo, and respond sincerely and 
enthusiastically, and that means that we have to face the 
possibilities of troops, logistic support, money into the 
peacekeeping operations that is a vacuum in the middle of 
Africa.
    Recently, there is movement that is starting up called the 
National Summit on Africa, which is an encouraging thing here 
in the United States. It seems to be building up a grassroots 
movement of support for concern for African policy and for 
engagement within Africa. Congressman Payne gave a good opening 
address to the regional meeting in Baltimore a couple of weeks 
ago of this group. One of the things that they have criticized 
of American policy is our neglect of Africa, and they have 
urged that the United States be willing to face the sending of 
troops and the giving of monetary support and logistic support 
to troop kind of operations in this area. There is support out 
there for this. We have a responsibility.
    [The prepared statement of Mr. Zartman appears in the 
appendix.]
    Mr. Royce. Thank you, Mr. Zartman, for your testimony. We 
will now go to Mr. Mwabilu Ngoyi for your testimony, sir.

STATEMENT OF MWABILU NGOYI, PRESIDENT, CONGOLESE INTERNATIONAL 
UNION, RUTGERS UNIVERSITY, AND KANYAND MATAND, VICE PRESIDENT, 
CONGOLESE INTERNATIONAL UNION, PROFESSOR, LANGSTON UNIVERSITY, 
                            OKLAHOMA

    Mr. Ngoyi. Thank you, Mr. Chairman and distinguished 
Members of the Subcommittee. It is a pleasure to testify this 
afternoon before you for the first time. We hope that this is 
not the last time to testify on behalf of the Congolese people, 
who are deeply worried about the prospects for peace in the 
Congo.
    Mr. Chairman, I would like to submit the statement on the 
diskette for the record. With your permission, I would like to 
summarize it and request for my summary on the disk to be part 
of the record.
    Mr. Royce. Both will be part of the record. We thank you.
    Mr. Ngoyi. My organization, the Congolese International 
Union, has a broad range of membership. Our members have many 
different opinions and views as to the political future of our 
country. We are opponents as well as supporters of the present 
government. However, there is one subject on which we all 
agree. We, all Congolese people, reject the illegal invasion of 
our country by Rwanda, Uganda and Burundi. We are unhappy and 
feel deeply disappointed by the failure of the U.S. Government 
to condemn the invasion, aggression and pillage of our country 
by the Rwandese, Ugandan, and Burindese armies.
    We fail to understand how the U.S. Administration can fall 
for the lies being told by these government, especially by 
Rwanda, about the need to invade the DR Congo, to overthrow the 
government and to carve up the Congo: all in the name of border 
security. It boggles the mind to think the American 
Administration is falling for this smoke screen. The Rwandan 
Ambassador, Mr. Chairman, is on the record to have lied before 
this Subcommittee. The Administration has said they never 
encouraged the invasion and never condemned them, but you know 
as well as I, Mr. Chairman, that in Africa and the rest of the 
world, when the United States fail to condemn, it is understood 
as encouragement. In this case, the United States failure to 
condemn Rwanda, Burundi and Uganda is tantamount to 
encouragement.
    The causes of the conflicts in the regions are related to 
the culture of violence and militarism, ethnic killing 
mentalities, ethnic self-serving interests that have set the 
stage for ethnic rivalries and ethnic mutual exclusion or 
extermination that is in itself the heart of genocide between 
Hutus and Tutsis. Unless these issues are clearly dealt with, 
ethnic mutual mass killing between these two rival groups will 
not end in the region; mass migration of refugees from these 
countries to Congo will not end, and the blaming of outsiders 
by these two ethnic groups will not end.
    We, all Congolese people, reject any form of partitioning 
of the DR Congo. We have difficulties endorsing the Lusaka 
Accord in its current form because: No. 1, it does not contain 
any obvious condemnation of the invaders, namely, Rwanda, 
Burundi and Uganda. No. 2, it legitimizs and rewards terrorist 
behavior by allowing the invading troops to hold on to their 
current position. No. 3, it authorizes the resupply of weaponry 
to the invaders. No. 4, it keeps off the table of negotiation 
the nonarmed group. No. 5, it authorizes the disarmament of the 
Mai-Mai resistant group, which are non-Rwandan rebels fighting 
against their own ethnic extermination by Rwandese, Ugandese 
and Burundian troops.
    We recommend the following: (1) The U.S.A. has to take a 
more active role to stabilize the region. (2) The money from 
international institutions should either be allowed to both 
parties involved in the crisis or prevented in all fairness. 
(3) There ought to be a strong cry of outrage for the invasion 
of the DR Congo. (4) We strongly recommend to the international 
community to not allow verdict or judgment of the crisis on the 
sole basis of whether they support or not the current 
government in the DR Congo. For, we human beings pass, but no 
nations and institutions remain. President Kabila is just one 
person in millions. The nation should not be destroyed on the 
basis of personal feelings by invaders against the Congolese 
President. We believe that democracy is the best way of change 
of government without bloodshed of innocent people.
    (5) The U.S. Congress should hold accountable the invaders 
for their lies, manipulations, and deceptions throughout the 
crisis. (6) The United States should give the Congolese people 
a chance for democracy by ordering an immediate withdrawal of 
the invaders from the Congolese soil. (7) The U.S. Congress 
should request that the Arusha jurisdiction should be broadened 
to cover all crimes committed in Congo in order to combat 
impunity that perpetuates the cycle of violence in central 
Africa.
    The reason why we have recommended this is because of the 
several implications of the Lusaka Accords: (1) It guarantees 
instability in the region for many years to come because of 
mistrust it is creating. (2) It prepares for another genocide, 
as real causes of the crisis are not addressed. (3) It either 
kills or delays the democratization process and development in 
the region. (4) It sets the stage for partition of not only the 
DR Congo, but also many other African countries in the future. 
(5) It legitimizes an invasion as long as there is an emotional 
or sympathetic reason. (6) It legitimizes all human rights 
abuses and other kinds of abuses associated with the invasion.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Ngoyi appears in the 
appendix.]
    Mr. Royce. We thank you, Mr. Ngoyi. Let me begin by asking 
a question of Professor Zartman. What weight do commercial 
interests, the control of resources and economic interests play 
in the participation of states that are active in this Congo 
conflict? I think there is a question of has this become a war 
for profit when we see what is being looted out of the Congo 
from Zimbabwe to Uganda, or actually most of the states in the 
region that seem to be involved all seem to have financial 
interest. Let me ask you to comment on that.
    Dr. Zartman. This is what happens when you have a power 
vacuum in an area of this kind. It is rich with raw materials. 
There are certainly private profiteers, including people 
involved in some of the military forces, and Zimbabwe, to your 
question about Zimbabwe, the main purpose of Zimbabwe seems to 
be to be able to benefit from its position in aspects of the 
economy, particularly in southern Congo and particularly in 
Gecamines and other of the mining areas. So I think that 
element is quite present.
    Mr. Royce. Let me ask you this, is Rwanda's rationale that 
it is securing its borders, is that legitimate given that its 
military forces are in fact several hundred miles into the 
Congo?
    Dr. Zartman. The concern is legitimate, and the concern, it 
seems to me, goes back to the welcome that then Zaire gave to 
the genocidaires, to the ex-FAR and Interahamwe, who used 
hundreds of thousands of legitimate refugees as shields, as 
groups within which to hide. These same groups then were used 
by the present government in trying to fight the Rwandans. Now, 
how the Rwandans do it and penetrating deep into the country is 
something that obviously on its own is not condoned in 
interstate relations, but there is a legitimate security 
concern to begin with.
    Mr. Royce. Well, then let us play devil's advocate for a 
moment. I will turn to Mr. Ngoyi and ask him the derivative of 
that question. How can the Hutu-Tutsi problem, as you have 
delineated that in your statement, how can that be solved in 
Rwanda and Burundi when Hutu rebels are using Congo as a base 
to destabilize these countries? Do these governments have a 
right to self-defense under certain circumstances? And let me 
let you have the floor on that.
    Mr. Ngoyi. Mr. Chairman, if necessary, I would like to ask 
that the Vice President be able to add some elements to the 
response I provide whenever needed.
    Mr. Royce. Certainly.
    Mr. Ngoyi. Thank you. I will try to give some elements. It 
seems that the Hutus or the remnant of the former Rwandan army 
are not only in the Congo, Mr. Chairman. They are also in other 
countries. So the rationale is that if the Rwandan government 
would invade Congo for that reason, therefore, we should expect 
Rwanda to be invading Tanzania, the Congo-Brazzville and other 
countries that surround Rwanda. I don't know if that is 
something that is being weighed.
    Mr. Royce. Let me ask another question of you, Mr. Ngoyi, 
where you said one of your concerns in terms of the Lusaka 
Accord was that it excludes the Mai-Mai groups. Why were these 
groups excluded? Was that a decision they made on their own 
part or did we just fail to include them in the Accords and is 
there any reason why they couldn't be part of the national 
reconciliation and the establishment of a new political 
dispensation envisioned by the Accords?
    Mr. Ngoyi. They have been included for disarmament of armed 
groups.
    Mr. Royce. Right, they have been told to disarm, and these 
are the groups that historically fought Mobutu and now aren't 
in Accord with the current government. The question is they 
have been asked to disarm but they haven't had a seat at the 
table, I guess, is the point that you were making.
    Yes. And we will ask the Vice President of the Congolese 
organization to identify himself and then he can speak. Yes, 
sir.
    Dr. Matand. OK. Thank you very much, Mr. Chairman. My name 
is Kanyand Matand. I am a professor at Langston University in 
Oklahoma.
    Mr. Royce. Yes, Professor.
    Dr. Matand. Concerning the question you just asked, which 
is very important to us. The Mai-Mai problem really is at the 
heart of what is going on because, as you just mentioned 
earlier on, it started with the fight against Mobutu. They did 
not start fighting against Rwanda, but if now they become a 
problem, the only reason is that when Rwandese army invaded 
Congo they systematically started killing clan leaders and the 
family members belonging to those groups. As the Congolese 
government was unable to protect and defend them, they had to 
take up arms against self-extermination, and that is where the 
problem is. And all Congolese people do feel that it is 
legitimate for them to defend themselves if the Congolese 
government is unable to do so. So that is why really Congolese 
people are against disarming them unless these invader groups 
leave the country.
    Mr. Royce. I am going to ask you at this time if you would 
just identify yourself for the record again and give your name 
and your position.
    Dr. Matand. OK. My name is Kanyand Matand. It is K-A-N-Y-A-
N-D, M-A-T-A-N-D. I am a professor at Langston University in 
Oklahoma.
    Mr. Royce. And you are Vice President and delegate for 
Congolese International Union?
    Dr. Matand. Yes, in charge of the Americas.
    Mr. Royce. And, Doctor, we thank you for your participation 
today. My time has run out but at this time just for the 
record, I want to insert a statement by the Chairman of the 
Full Committee. He was unable to come to this hearing and 
regrets that his statement could not be made publicly, but we 
are going to insert Chairman Gilman's statement into the record 
at this time, and now we will go to the Ranking Member of the 
Committee Mr. Payne.
    [The prepared statement of Hon. Benjamin Gilman appears in 
the appendix.]
    Mr. Payne. Thank you very much. Dr. Zartman, could you give 
us an idea of what the political climate is in Democratic 
Republic of Congo with the level of a party of national unity 
or a vehicle to bring political parties together to talk about 
the future government?
    Dr. Zartman. I don't think that these efforts have really 
turned into anything as yet. I mean, this dialogue has not 
taken place, and in fact, one of the problems is the 
registration or re-registration of political organizations 
within Congo. The former political parties claim that they 
should not have to register because they continue to exist, as 
a new organizations. Some of the leaders or members have been 
interrogated, arrested and so on. It is not a very conducive 
atmosphere to setting up a dialogue. Hopefully, the 
implementation of the Accords will change that.
    Mr. Payne. That is good. Do you know if Tshisekedi is 
playing any role currently in the Congo? I know that at one 
point he went back to the farm, and do you know if there is any 
political activity with him in this process?
    Dr. Zartman. I think his activity has been much less. When 
I last saw him he was in Kinshasa in from the farm, and his 
followers were around. Followers of the UDPS, as it is called, 
have been arrested and their activity is diminished. It is a 
little hard to tell, the public opinion polls are limited to 
Kinshasa, but there are some good ones. He is still a leader of 
some recognition but doesn't have the same popularity that he 
had before.
    Mr. Payne. How about Karara and Mbiya. They were active, as 
you know, at the beginning of the new government.
    Dr. Zartman. Well, Karar is off with the RCD in Goma, 
Kinsangani, wherever its headquarters is now located, and the 
feeling is that both in the Kivu in the east and certainly 
Kinshasa he has lost enormous credibility, so he is not a 
leader of any account within the Congolese politics itself. 
There have been other people like Wamba dia Wamba, the one time 
president, still claiming to be president of the RCD, who is a 
figure of recognized integrity and suffering for it in the 
leadership that he can pull among the rebels.
    Mr. Payne. Thank you. Very much. Let me ask, Mr. Ngoyi, you 
may know that Congressman Campbell and I in the days before Mr. 
Kabila was able to mount an offensive that was successful in 
replacing Mr. Mobutu, that we visited Goma at that time and 
were encouraged by what he wanted to do. As a matter of fact, 
it was suggested that we not visit Mr. Kabila at that time 
because the official State Department did not feel it was the 
right thing to do, but being so opposed to the Mobutu regime 
for so long, we went anyway, and we had a very engaging and 
very good conversation with Mr. Kabila and met him on several 
occasions after that.
    I was just interested in the--your testimony is very clear 
that the problem in the Congo is specifically Rwanda, Uganda 
and Burundi's intervention in the Congo, and you did mention 
that they have nothing to do with the Congo. As you may recall, 
Mr. Kabila received a tremendous amount of support at the 
initial refusal of Mr. Mobutu to recognize and ostracize the 
Banyamulenge people who are against the basic ethnic Rwandans 
and his refusal to allow them citizenship with their movement 
then joining with Mr. Kabila, and then the other forces from 
Rwanda that assisted Mr. Kabila in Uganda and went on to the 
victory.
    The Rwandan, Burundians, I guess, and Ugandans, as you 
charge them, have had a problem with the continued cross border 
killings. As you may recall, there were tremendous attacks on 
the villages on the border several years ago, and it was felt 
that the government of Kabila was not supporting the--or 
patrolling the borders even though the Rwandans were 
controlling the border also, but they felt there was not enough 
support from that side and felt that they had to actually take 
the situation into their own hands as you know, as you recall. 
It is estimated between 500,000 and a million ethnic Hutus and 
moderate Tutsis were--I mean Tutsis and moderate Hutus were 
killed, and I suppose there is some feeling that we need to be 
sure that this doesn't happen again.
    I guess my question is, there is an intertwining of the 
two, and the fact that there was such a close working 
relationship between the Kabila Government and the forces of 
Rwanda and Uganda during the move through--as a matter of fact, 
it is very ironic that Zimbabwe did absolutely nothing in the 
march of Kabila to Kinshasa, which surprised me greatly for the 
tremendous interests that they took after the fact and not 
before the fact. And so I just wonder if you could just 
elaborate a little bit on your feeling, and as we have 
indicated, Mr. Campbell and I were probably the biggest 
supporters Mr. Kabila had, and I speak for myself. I felt that 
it was great that there was going to be a change of 30 years of 
a tyrant of Mobutu. I have always opposed the U.S. policy of 
supporting Mobutu during the cold war, but that was the policy, 
and I wasn't Secretary of State.
    But I just wonder how you conclude that it is only Rwanda 
and Uganda's fault, if we are talking about blame, and that all 
of the other, Angola, Zimbabwe and Namibia and others who came 
in after, although Angola was supportive of Kabila, also. As a 
matter of fact, they did many of the bridge construction, and 
the heavy duty work was done by the cooperation of Angolans to 
assist Mr. Mobutu, and even Ethiopia and Eritrea also gave 
assistance, everyone except Zimbabwe and Namibia.
    So if you could kind of clarify for me your strong feeling. 
I am not saying it is wrong or right. I would just like for you 
to try to explain to me a little bit better about how--and I 
don't point any fingers. I think there is enough blame to go 
around in this very complicated situation, but your fingers are 
only pointing at Rwanda and Uganda and Burundi, as you say.
    Mr. Ngoyi. Thank you, Congressman Payne. I would like to 
state that we don't condone nor support crimes committed either 
by the Congolese Government or the invaders.
    First, when Mr. Kabila came to power, our understanding is 
that the ones who were in control of the army and the security 
of boarders were the Rwandans and Ugandans.
    Second, I would also like to mention that the Congolese 
have been waiting for so long for democratic change in the 
country. Our conviction is that if there were not these 
unfortunate events, the Congolese would have speeded up with 
democratic change with the current government. We strongly 
believe that. If the forces in place were to leave, the 
Congolese people would push seriously for the change, for the 
initiation of the democratic process, the rule of law and the 
implementation of stable institutions and to have a government 
that is accountable to the people.
    Dr. Matand. If I may add this, Mr. Chairman, it is actually 
ironic, as Mr. Congressman Payne stated early on, that when Mr. 
Kabila took power his mentors were Rwanda, Uganda and Burundi. 
As you may recall, that Kabila was not the first choice among 
Congolese people, if it was not really the support from Rwanda, 
Burundi, which claimed to be one of the best leaders. So at the 
beginning the Congolese people were against Kabila. If we have 
a problem now, and we are talking in terms of Rwanda ethnic 
groups, it is built on what actually happens in the culture 
from the past. Because the international community seems to 
forget--just focus attention on the 1994 genocide and overlook 
exactly why these two groups are responsible for what is 
happening.
    In Congo, to remind you, we are 450 ethnic groups, although 
we have internal ones, but never had one group tried to 
exterminate another group. We cooperate, we have conflict but 
we still look the way we can sit around the table and find a 
compromise. That is why Mobutu's regime was weakened by 
different position groups. But in Rwanda we have mainly Rwanda, 
Burundi, we have mainly two ethnic groups which cannot stand 
each other. So what they do, if one takes power, the first 
thing to do is to chase the other group and look out to 
exterminate all the members. So usually they cross the border, 
they come to Congo because we know the importance of their 
survival.
    So in this case, unless this critical issue is dealt with, 
only time the international community will be just letting 
Rwanda cross the border to Congo to fight, actually is not even 
regular fighting but it is causing genocide of Hutus, which are 
not actually being spoken intensely as the genocide of 1994.
    So if there is a way of forcing these two groups around a 
table to get them together, unified, it will solve the problem 
because if they keep continuing with their policy or culture or 
modality of mutual exclusion, while we can blame Congo over and 
over, it will never solve the crisis in the region.
    Mr. Payne. I agree and I was just curious. As you 
mentioned, that is a problem that must be solved, and of 
course, you say everyone got together, was all right on Mobutu, 
but there is still the Banyamulenge people, who were still the 
Rwandans, were not treated all right in the Congo, and also of 
course the people from Chava province that moved to Angola for 
30 years and came back, felt uncomfortable about coming back 
until Kabila came to, I guess, the Mai-Mai people.
    So, like I said, my whole concern is that you can give 
examples of almost any other country to point to a similar kind 
of problem, but I think that the whole solution--and I believe 
that is what this whole group of belligerents trying to come 
together to finally get the ex-FAR and the Interahamwe and the 
genocidaires, disarm them and have them return back to their 
countries, and that I think would at least take away, as you 
say, maybe an excuse that Rwanda uses in order to come through 
the borders of Congo.
    Dr. Matand. If I may add, Mr. Chairman, please.
    Mr. Royce. OK. Then we are going to go to Mr. Meeks and 
then Mr. Campbell. Go ahead.
    Dr. Matand. If you recall, not very long ago the Congolese 
Government agreed really to disarm the Interahamwe and the 
Hutus army group, send them back either to Rwanda or to 
different countries. So that issue is really on the table. It 
is not excluded.
    Mr. Royce. OK. Now, we are going to go to Mr. Meeks of New 
Jersey and then Mr. Campbell of California--of New York, Mr. 
Meeks of New York and Mr. Campbell of California, and that will 
conclude our hearing. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Dr. Zartman, I have a 
couple of quick questions, something similar to what was asked 
earlier. What is your opinion, is the United States doing 
enough in its role in the Congo now? And if not, what else do 
you think we should be doing?
    Dr. Zartman. No, sir, I don't think that we are doing 
enough. I have pointed out one thing I think that we can be 
doing, and I pointed this out as early as the beginning of this 
year when I was out on a mission in Congo, and that is, to work 
for a dialogue among Congolese people, among Congolese 
organizations. I think that is an important role to play. 
Perhaps when you ask about doing enough, you may be talking 
about money or something like that. I think there are other 
things that don't take a lot of money that are crucially 
lacking and represent a role we can play.
    In terms of money we could be doing more, but there it has 
been very difficult and I think the Administration tried very 
hard in the beginning. I was one of the people with Congressman 
Payne who was very hopeful about the government that came in 
and replaced Mobutu, but the situation was not a welcoming 
situation. I think we made some mistakes as well, but there I 
think we have been as forthcoming as we can be.
    What we need at this point is to encourage this process 
now, the process now that has been launched in the Lusaka 
agreements so that it doesn't get off track.
    Mr. Meeks. Let me ask this, and I don't know whether I am 
reading you correctly or not, but it seems to me that you are 
somewhat pessimistic about the hopes of the implementation of 
the present cease-fire agreement. Is there anything that we can 
do as far as policy or any option that we can to try to make 
sure that the cease-fire agreement is implemented?
    Dr. Zartman. I am not pessimistic. I am an incorrigible 
optimist. Anybody who knows me knows that. But I think we 
better keep our eyes open and remember that this agreement is 
not self-implementing. We as Americans so frequently--and 
particularly in an area like Africa, that we would like to get 
out of, that somehow is troublesome to us in many perceptions--
we have the idea that once we get an agreement like this, well, 
then, everything is taken care of, we have got peace and got 
cease-fire and it can go and take care of itself. Whereas as I 
say, this needs tending. It needs encouragement. The parties 
need to be pushed to implement the action, and we need to be 
engaged, and I particularly mentioned this area of military 
either as troops or particularly financial and logistic 
support.
    There is in your organization I think a resistance to 
committing money to troops abroad, and I encourage you in your 
efforts to overcome that resistance.
    Mr. Meeks. Mr. Ngoyi, let me just ask this question. I 
think that we had a hearing not too long ago, and I get 
confused also as to whether or not you would describe some of 
the problems that are going on in the Congo, is it based upon 
tribalism or ethnicity, or just how would you describe it, 
either one of those two or something else. How would you 
describe some of that upheaval?
    Mr. Ngoyi. I will describe them as a problem based on, yes, 
ethnic problems, and I would also describe them as problems 
essentially military politics, that when you have a gun then 
you can dictate the politics. If we could ask the United States 
to strongly discourage the reliance of minority regime or any 
kind of regime in central Africa, to always try to access to 
power by gun, that will be a tremendous help.
    Dr. Matand. If I may add, Mr. Chairman, please. The way we 
describe it, we describe them as being ethnic intolerance but 
not to the level of wanting to eliminate an ethnic group. It 
does not rise to the level of mutual extermination as to what 
is taking place in Rwanda because you can see, we are 450 
ethnic groups but we learn to disagree and live together. There 
has never been a single ethnic group claiming power in the name 
of ethnicity. This has happened very often in Rwanda, Burundi 
and Uganda, and that is why really we are completely different 
because they kill each other massively just to eliminate 
completely the opposite ethnic group. We don't do that in 
Congo.
    Mr. Meeks. And the last question real briefly, are you 
optimistic or pessimistic about the cease-fire and the peace 
agreement that is taking place?
    Mr. Ngoyi. I am rather very pessimistic. Unless the U.S. 
Government tried to provide some strong leadership, the 
likelihood of continued violence is going to be there. I am 
very pessimistic about the peace Accords.
    Mr. Royce. Thank you.
    Dr. Matand. If I may, please.
    Mr. Royce. Yes, doctor.
    Dr. Matand. I agree. I am also pessimistic for the simple 
reason that as long as those illegally invading troops hold to 
their position there is no reason really why we should expect 
any kind of change very soon.
    Mr. Royce. We go to Mr. Campbell.
    Mr. Campbell. Thank you. I wish to address Mr. Ngoyi or is 
it Mr. Mwabilu?
    Mr. Ngoyi. Ngoyi will be fine.
    Mr. Campbell. Ngoyi, first name then.
    Mr. Ngoyi. That is the last name.
    Mr. Campbell. I apologize. My list of the witnesses make it 
unclear to me. I wish to address you and Professor Matand to 
give to me and my colleagues a background of who the Congolese 
International Union is so that I can better weigh the advice 
you are giving. For example, are you elected by whom? Who can 
vote? A Congolese in France can vote, a Congolese in Belgium 
can vote, a Congolese in America can vote? Just tell me a bit 
about the organization of which you are president and of which 
you are Vice President.
    Mr. Ngoyi. Thank you very much. We think that we have 
submitted to the----
    Mr. Campbell. I have it, yes. I have read it.
    Mr. Ngoyi. And in the name of national unity to further 
dialogue, inter-Congolese dialogue, we were talking to all 
parties, including the Congolese Government, the rebels, Mai-
Mai, and people in the Congo. We are very grateful to Rutgers 
University's Center for Global Change which sponsored this 
conference. We had Congolese from Congo, Congolese from Europe, 
Congolese from Canada and Congolese from various states in the 
United States who came for 2 days conference in Newark and 
concluded by, of course, this organization, the Congolese 
International Union, borne out of a pact name, the pact of 
Newark, in recognition to the location and to show our 
gratitude to the university which has supported us.
    As I mentioned those groups, we have groups that are 
against the government. We have also among us groups that are 
supporting the government, and both had elections. I was 
elected as president, and we had also three vice presidents, 
one elected elected vice president for the Americas, one was 
elected vice president for Europe, a vice president and a 
national president for Congo, who is a priest.
    Mr. Campbell. And who is allowed to vote? Was it those who 
attended the conference in Newark or is it a broader group?
    Mr. Ngoyi. Those who were there voted.
    Mr. Campbell. Thank you very much. Anything that comes out 
of Newark has to have a presumption of legitimacy and 
credibility. I have always said that.
    Dr. Zartman, can you give me a thumbnail understanding, 
because I don't have it, of why Uganda and Rwanda fell apart in 
their backing of the rebel movement? It appeared that they were 
together, and then obviously with the dispute that we saw at 
Lusaka getting down to Wamba dia Wamba and these challenges to 
who was actually heading up the rebel movement. I don't 
understand where Uganda and Rwanda's interests separated.
    Dr. Zartman. I think they fell apart because they were on, 
not a joint track, but on parallel tracks; that is, each was 
concerned about the same issue but in their own terms, that is, 
their security zone on either side, this is the political 
aspect. And therefore, I think the Rwandans have a deeper 
feeling of their security concerns because of this split that 
goes down the middle of their society--or off to one side 
because it is a minority issue--whereas for the Ugandans there 
a number of different rebel groups, most of them supported by 
Sudan but also that have sanctuary in the Congolese 
territories, and therefore, it is not a conflict that reaches 
deep into the heart of Ugandan society but rather their 
peripheral groups. Therefore, it became easier for them to 
bring the security issue under control or imagine a control of 
the security issue.
    Furthermore, the group under Bemba that was associated with 
them was in some cases doing much better. So their security 
concerns were taken care of a little better, and they wanted to 
move out more rapidly than Rwanda did. It was tiring them, and 
then it was tarnishing their reputation.
    Mr. Campbell. Is there a difference between Uganda and 
Rwanda insofar as their willingness to come to terms with the 
Kabila Government is concerned? I say that because here's my 
prior and then please rebut the prior or confirm the prior. The 
prior is that Rwanda cannot come to an agreement with Kabila, 
that replacing him is the long term possibility that might 
intrigue them, whereas Uganda is perfectly capable of making an 
agreement with Kabila.
    Dr. Zartman. This is very hard to judge, but in the last 
trip we had when in Rwanda, I did not come out with that 
impression. I mean, we were told that Rwanda was not interested 
in overthrowing the government; it was interested in taking 
care of its security concerns; it was by no means interested in 
annexing territory. There was a trial balloon that was once 
floated by the President of Rwanda, and that was a big dud, 
nobody picked that up, and that seems to have disappeared, and 
I think the issue of redoing the boundaries or anything like 
that is quite legitimately, happily a dead issue.
    No, I think both can be players in this reconciliation and 
peace engagement that they have taken.
    Mr. Campbell. Thanks to all three witnesses. Thanks, 
Chairman Royce.
    Mr. Royce. Thank you, Mr. Campbell. Well, in conclusion let 
me just comment on something that Dr. Matand had said in his 
testimony. I think there is a certain irony in the fact that it 
was a vibrant and pro-democratic culture that seemed to be 
evolving, especially in the last 2 years of the Mobutu regime, 
in Congo, and we spoke by phone and we spoke in person when we 
were there several days after the Mobutu regime fell in Congo 
with some of these Congolese who desired this transition to 
democratic governance, and I think that as we move forward one 
of the important issues is keeping the focus on bringing the 
rule of law and bringing democracy to Congo, while at the same 
time having us focused on keeping all parties on board and 
committed to the Lusaka Accords and having all parties withdraw 
their troops from Congo.
    And I thank each of you, Dr. Zartman, again, and Mr. Ngoyi, 
for coming here and testifying here today. Very much appreciate 
it. Your testimony will be in the record. Thank you, members. 
The Committee stands adjourned.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           SEPTEMBER 28, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T1318.001
    
    [GRAPHIC] [TIFF OMITTED] T1318.002
    
    [GRAPHIC] [TIFF OMITTED] T1318.003
    
    [GRAPHIC] [TIFF OMITTED] T1318.004
    
    [GRAPHIC] [TIFF OMITTED] T1318.005
    
    [GRAPHIC] [TIFF OMITTED] T1318.006
    
    [GRAPHIC] [TIFF OMITTED] T1318.007
    
    [GRAPHIC] [TIFF OMITTED] T1318.008
    
    [GRAPHIC] [TIFF OMITTED] T1318.009
    
    [GRAPHIC] [TIFF OMITTED] T1318.010
    
    [GRAPHIC] [TIFF OMITTED] T1318.011
    
    [GRAPHIC] [TIFF OMITTED] T1318.012
    
    [GRAPHIC] [TIFF OMITTED] T1318.013
    
    [GRAPHIC] [TIFF OMITTED] T1318.014
    
    [GRAPHIC] [TIFF OMITTED] T1318.015
    
    [GRAPHIC] [TIFF OMITTED] T1318.016
    
    [GRAPHIC] [TIFF OMITTED] T1318.017
    
    [GRAPHIC] [TIFF OMITTED] T1318.018
    
    [GRAPHIC] [TIFF OMITTED] T1318.019
    
    [GRAPHIC] [TIFF OMITTED] T1318.020
    
    [GRAPHIC] [TIFF OMITTED] T1318.021
    
    [GRAPHIC] [TIFF OMITTED] T1318.022
    
    [GRAPHIC] [TIFF OMITTED] T1318.023
    
    [GRAPHIC] [TIFF OMITTED] T1318.024
    
    [GRAPHIC] [TIFF OMITTED] T1318.025
    
    [GRAPHIC] [TIFF OMITTED] T1318.026
    
    [GRAPHIC] [TIFF OMITTED] T1318.027
    
    [GRAPHIC] [TIFF OMITTED] T1318.028
    
    [GRAPHIC] [TIFF OMITTED] T1318.029
    
    [GRAPHIC] [TIFF OMITTED] T1318.030
    
    [GRAPHIC] [TIFF OMITTED] T1318.031
    
    [GRAPHIC] [TIFF OMITTED] T1318.032
    
    [GRAPHIC] [TIFF OMITTED] T1318.033
    
    [GRAPHIC] [TIFF OMITTED] T1318.034
    
    [GRAPHIC] [TIFF OMITTED] T1318.035
    
    [GRAPHIC] [TIFF OMITTED] T1318.036
    

</pre></body></html>
